CERTIFICATE OF SERVICE
NO. TBD
Advantageous Community Services, LLC, Arminder Kaur, Haraspal Singh, and Harchi Singh
Petitioners,
v.
Gary King, Amy Landau, Elizabeth Staley, Marc Workman,
Cathy Stevenson, Orlando Sanchez, and Walter Rodas
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
ADVANTAGEOUS COMMUNITY SERVICES, LLC, ET AL. PETITION FOR WRIT OF CERTIORARI, by mailing
three (3) true and correct copies of the same by Fedex 2-Day, prepaid for delivery to the following
address.
Daniel R. Dolan, II
Dolan & Associates
3167 San Mateo NE Unit 110
Albuquerque, NM 87110
(505) 883-1266
drd@lobo.net
Counsel for Gary King, et al.

Lucas DeDeus

April 28, 2021
SCP Tracking: Sanders-820 2nd Street N.W.-Cover White

